-ATTACHMENT 2-

No. 20

In The
The Supreme Court of the United States

Eboni Nicole Baldwin (PRO SE), Petitioner
v.
Latoisha Dorsey, Respondent

ON PETITION FOR
A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT

CERTIFICATE OF SERVICE
I, Eboni Nicole Baldwin, Petitioner, PRO SE, hereby certify that on the 21st day of
November, 2020, I caused to be served three (3) copies of the Petition for a Writ of
Certiorari in the above referenced case by first-class mail, postage prepaid, upon the
counsel for Respondents as listed below: Rule 33.1(d).
Jim Charles Ezer
Harris County Attorney’s Office
Federal Bar No. 3322
State Bar No. 06765000
1019 Congress, 15th Floo:
Houston, Texas 77002
Telephone: (713) 561- 3011
Fax: (713) 583 - 5470
iim.ezer@cao.hctx.net
Suzanne Bradley
Harris County Attorney’s Office
Federal Bar No. 24567
State Bar No. 00793375
1019 Congress, 15th Floor

-ATTACHMENT 2Houston, Texas 77002
Telephone: (469) 287 - 3946
Fax: (469) 227 - 6576
Suzanne.bradlev@cao.hctx.net

Attorneys Respondent
Latoisha Dorsey

Additionally, in accordance with Supreme Court Rule 29.3, an electronic version of the
Petition for a Writ of Certiorari was transmitted to counsel for Respondents at the email
address iim.ezer@cao.hctx.net and Suzanne.bradlev@cao.hctx.net. I further certify that all
parties required to be served have been served.

Eboni Tncole Baldwin
PRO SE, Petitioner
P.O. BOX 366754
Houston, TX 76032
(832) 786 -8262
baldwinebonilegal@gmail.com

